   Report No. DODIG-2012-139   September 28, 2012




  Improvements Needed in Transparency and
Accountability of U.S. Army Reserve Component
              Equipment Transfers




    This document contains information that
   may be exempt from mandatory disclosure
     under the Freedom of Information Act.
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms
AC                            Active Component
ARNG                          Army National Guard
ASD (RA)                      Assistant Secretary of Defense for Reserve Affairs
JCS                           Joint Chiefs of Staff
OSA                           Office of the Secretary of the Army
OSD                           Office of the Secretary of Defense
RC                            Reserve Component
SECDEF                        Secretary of Defense
TPE                           Theater Provided Equipment
USAR                          U.S. Army Reserve
                                     INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                      4800 MARK CENTER DRIVE
                                   ALEXANDRIA, VIRGINIA 22350·1500




                                                                               September 28, 2012

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE FOR RESERVE
                 AFFAlRS
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Improvements Needed in Transparency and Accountability ofU.S. Anny
         Reserve Component Equipment Transfers
         (ReportNo. DODIG-2012-139)

We are providing this repoti for review and comJnent. Army officials did not implement
procedures to properly account for the tmnsfer and replacement of 239,332 pieces of Army
Reserve Components equipment, valued at approximately $5.8 billion. As a result, Army
Reserve Components have lost ti·ansparency of their equipment transfers and may experience
equipment shortages that couJd hinder their ability to train soldiers and respond to Federal, State,
or local emergencies. We considered management comments on a draft of this repOlt when
preparing the finalrepott.

DoD Directive 7650.3 requires that a ll recommendations be resolved promptl.y. As a result of
comments from the Assistant Secretary of Defense for Reserve Affairs, we deleted draft
Recommendation l.a and remunbered Recommendations l .b, l .c, l .d, and J .e to
Recommendations I .a, l .b, I.e, and l.d, respectively. Comments ft·om the Assistant Secretary of
Defense for Reserve Affairs, the U.S. Army Deputy Chief of Staff, G-8, and the Director, Army
National Guard were partially responsive. Comments from the Chief of Staff, U .S. Army
Reserve were not responsive, Therefore, we request comments on Recommendations l.a, 2.a,
2,b, 2.c, 3.a, and 3.b by October 29,2012.

Please provide comments that conform to the requirements of DoD Directive 7650.3. Comments
provided to the final report must be marked and portion-marked, as appropriate, in accordance
with DoD Manua15200.0 J. lf possible, send a portable document format (.pdf) file contain.ing
your comments to audclev@dodig.m il. Copies of your comments must have the actuaJ signature
of the authorizing officia l for your organization. We are unable to accept the /Signed/ symbol in
place of the actual signature. If you arrange to send classified comments electronically, you
must send them over the SECRET Internet Protocol Router Network {SlPRNET).

                                                     Please direct questions to me at



                                                       !.          .     ,
                                           I a..<.~ wd!<,,'-'(,_ ~. t.lJ~~.--x-'I.P'(;_..J
                                           3As~tant
                                           L
                                               )ac eJine L. Wtcecarvet=
                                                         Inspector General
                                               Acquisition and Contract Management
Report No. DODIG-2012-139 (Project No. D2011-D000AT-0274.000)                 September 28, 2012

               Results in Brief: Improvements Needed in
               Transparency and Accountability of U.S. Army
               Reserve Component Equipment Transfers
What We Did                                              mobilization because it did not maintain a central
We determined whether the Army had                       repository.
transparency and accountability for Army Reserve
Components (RCs) equipment transfers. We                 As a result, RCs have lost transparency of their
reviewed documentation for 290,500 pieces of             equipment transfers and may experience
equipment transferred between 2003 and 2011,             equipment shortages that could hinder their ability
valued at approximately $7.6 billion, to determine       to train soldiers and respond to emergencies.
whether the Army followed DoD Directive
1225.6, “Equipping the Reserve Forces,”                  What We Recommend
April 7, 2005 (Directive), when transferring             We recommend ASD (RA) update draft
equipment.                                               DoD Instruction 1225.06, finalize formal policies, and
                                                         develop a central repository. We recommend G-8
What We Found                                            conduct a review to determine the need to replace
Army officials did not implement accountability          equipment transferred, prepare proposal plans for
procedures to verify the transfer and replacement        future equipment transfers, take action to replace
of 239,332 pieces of RCs equipment, valued at            equipment transferred between 2003 and 2008, and
approximately $5.8 billion. Specifically, RCs            create implementing guidance. We recommend that
transferred 203,997 pieces of equipment to Army          the Chief of Staff, U.S. Army Reserve (USAR) and
Active Component (AC) and other RCs without              the Director, Army National Guard (ARNG) prepare
the Secretary of Defense’s (SECDEF’s) approval.          proposal plans and obtain SECDEF approval for
This occurred because:                                   future equipment transfers and create implementing
                                                         guidance.
   U.S. Army Deputy Chief of Staff, G-8 (G-8)
    and RCs inappropriately determined that              Management Comments and
    proposal plans were not required for 203,929         Our Response
    equipment transfers within RCs; and
                                                         As a result of comments from ASD (RA), we
   G-8 did not follow the requirement for
                                                         deleted draft Recommendation 1.a and
    preparing a proposal plan for 68 pieces of
                                                         renumbered Recommendations 1.b, 1.c, 1.d, and
    equipment transferred to AC.
                                                         1.e to Recommendations 1.a, 1.b, 1.c, and 1.d,
RCs transferred another 1,203 pieces of                  respectively. Comments from ASD (RA), the
equipment to AC and other RCs before obtaining           U.S. Army Deputy Chief of Staff, G-8, and the
SECDEF approval because G-8 did not initiate the         Director, Army National Guard were partially
approval process timely. The Assistant Secretary         responsive. Comments from the Chief of Staff,
of Defense for Reserve Affairs (ASD [RA]), G-8,          U.S. Army Reserve were not responsive.
and RCs could not accurately account for the             Therefore, we request comments by
replacement of 34,132 pieces of RCs equipment            October 29, 2012. Please see the
transferred to AC and other RCs because ASD              recommendations table on the back of this page.
(RA), G-8, and RCs informal processes were not
effective for verifying equipment replacements.
The Army could not determine the total amount of
RCs equipment transfers for the purpose of

                                                     i
Report No. DODIG-2012-139 (Project No. D2011-D000AT-0274.000)        September 28, 2012

Recommendations Table

         Management                       Recommendations     No Additional Comments
                                         Requiring Comment              Required
Assistant Secretary of Defense     1.a                       1.b, 1.c, and 1.d
for Reserve Affairs
U.S. Army Deputy Chief of Staff,   2.a, 2.b, and 2.c         2.d and 2.e
G-8
Chief of Staff, U.S. Army          3.a and 3.b
Reserve
Director, Army National Guard      3.a                       3.b

Please provide comments by October 29, 2012.




                                              ii
Table of Contents

Introduction                                                                     1

      Objective                                                                  1
      Background on U.S. Army Components                                         1
      Internal Control Weaknesses With Army Reserve Components
              Equipment Transfers                                                4

Finding. Transparency and Accountability Needed for Equipment Transfers          5

      Requirements for Equipment Transfers                                       5
      Equipment Transfers Made Within Army Reserve Components Without
              Proposal Plans                                                     6
      Management Actions to Clarify Equipment Transfers Made Within Army
               Reserve Components                                                8
      Army National Guard Equipment Transfers Made to Army Active Component
              Without Proposal Plans                                             8
      Timeliness of Initiation of Proposal Plan Approval Process                 9
      Management Actions Related to the Initiation of the Approval Process for
              Equipment Transfer Proposal Plans                                  10
      Ineffective Accountability of Army Reserve Components Replacement
              Equipment                                                          10
      Management Actions Related to the Tracking of Army Reserve Components
              Equipment Replacement                                              11
      Army Needs a Central Repository to Track Army Reserve Components
              Equipment Transfers                                                12
      Conclusion                                                                 12
      Recommendations, Management Comments, and Our Response                     13

Appendices

      A. Scope and Methodology                                                   21
             Use of Computer-Processed Data                                      22
             Prior Coverage                                                      23
      B. Diagram of Proposal Plan Approval Process                               24

Management Comments

      Assistant Secretary of Defense for Reserve Affairs                         25
      Department of Army, G-8                                                    28
      U.S. Army Reserve                                                          30
      Army National Guard                                                        32
                                 FOR OFFICIAL USE ONLY



Introduction
Objective
Our objective was to determine whether the U.S. Army had transparency and
accountability for equipment transferred between the U.S. Army and U.S. Army Reserve
Components. See Appendix A for a discussion of the scope and methodology and prior
coverage related to the objective.

Background on U.S. Army Components
The National Defense Authorization Act for FY 2012 approved the U.S. Army’s end
strength to be approximately 1.1 million soldiers. The 1.1 million Army soldiers are
divided between two distinct and equally important components: Army Active
Component (AC) at 562,000 soldiers and Army Reserve Components (RCs) at
563,200 soldiers. Army AC mission is to fight and win wars by providing prompt and
sustained land dominance. Army RCs are made up of the U.S. Army Reserve (USAR)
and Army National Guard (ARNG). USAR is authorized 205,000 soldiers that are
trained, equipped, and ready to meet global requirements across a full spectrum of
operations. ARNG is authorized 358,200 soldiers and has a dual mission that consists of
both Federal and State roles. A Governor can activate ARNG during local or State
emergencies, such as storms, mudslides, fires, earthquakes, or civil disturbances. In
addition, the President of the United States can activate ARNG for participation in
Federal missions.

Equipping Army Active Component and Mobilizing Army
Reserve Components
Over the past decade, Army RCs have fought side-by-side with Army AC in support of
overseas contingency operations in Southwest Asia. Operations Enduring Freedom, Iraqi
Freedom, and New Dawn have required significant numbers of soldiers and equipment to
combat these evolving threats. Since September 11, 2001, Army officials have activated
203,613 USAR soldiers and 360,796 ARNG soldiers.1 Army RCs are activated when
they are officially ordered to the Army AC.

According to the draft “DoD Directive 1225.6 Request Review Process,” flowchart and
Army officials, the U.S. Central Command Combatant Commander is responsible for the
soldiers geographically located in Southwest Asia. The Office of the U.S. Army Deputy
Chief of Staff, Operations (G-3) is responsible for developing plans and priorities within
each Combatant Command. The Commander and G-3 work together to identify
mobilizing units,2 what missions the units will accomplish, and equipment requirements
to accomplish the missions. G-3 submits a list of the equipment requirements to the


1
  USAR and ARNG soldiers are counted each time they are activated causing the activated number of
soldiers to be higher than the authorized number of soldiers.
2
  Mobilization involves the preparation of soldiers and their required equipment.

                                 FOR OFFICIAL USE ONLY
                                           1
Office of the U.S. Army Deputy Chief of Staff, G-8 (G-8). G-8 is responsible for
matching available resources to identified equipment requirements. G-8 reviews the list
of equipment requirements and proposes the best approach to fulfill the equipment
requirements to G-3. G-8 can propose the fulfillment of equipment requirements through
new procurements, Theater Provided Equipment (TPE),3 Army AC to Army AC
transfers, and Army RCs equipment transfers. G-8 recommends Army RCs equipment
transfers as a last resort to meet the requirements of mobilizing Army AC or Army RC
units. G-3 approves the G-8 proposal and informs the Combatant Commander of how it
will meet the equipment requirement. G-8 must follow DoD Directive 1225.6,
“Equipping the Reserve Forces,” April 7, 2005 (Directive), when G-3 agrees to fulfill
equipment requirements through Army RCs equipment transfers.

History of DoD Directive 1225.6
In November 1992, the Assistant Secretary of Defense for Reserve Affairs (ASD [RA])
issued the Directive to address the transfer of equipment from RCs to the AC. ASD (RA)
created the Directive to prevent the RCs from being used as equipment pools, as well as,
to prevent funding designated for the RCs from being diverted to the AC and having
older, less capable equipment provided to the RCs. In April 2005, ASD (RA) revised the
Directive to update policies and responsibilities for procuring and distributing items of
new and combat-serviceable equipment to the RCs. The Directive also requires a
proposal plan to replace equipment transferred from the RCs. The proposal plan
identifies the type and quantity of agreed upon equipment to transfer, as well as, an
equipment replacement plan. The replacement plan specifies when and how the
equipment will be replaced. Equipment can be replaced with newly acquired equipment,
refurbished equipment, or funding for the replacement value of the transferred
equipment.

The Directive requires Secretary of Defense (SECDEF) approval of proposal plans before
the transfer of equipment. In December 2006, Army officials requested delegation of
approval authority to the Secretary of the Army for equipment transfers. In
October 2007, the Deputy Secretary of Defense denied the request to lower the delegation
of approval authority to the Secretary of the Army. In January 2012, Army officials
requested that the Deputy Secretary of Defense modify the Directive to exclude the
requirement of a proposal plan for equipment transfers made within Army RCs. On
May 16, 2012, the Under Secretary of Defense for Personnel and Readiness issued
DoD Instruction 1225.06, which still requires proposal plans for equipment transfers
made within Army RCs.

Army’s Approval Process of Proposal Plans
According to the draft “DoD Directive 1225.6 Request Review Process,” flowchart and
Army officials, once G-3 approves the G-8 recommendation to fulfill an equipment
requirement through an Army RCs equipment transfer, G-8 coordinates with the head of


3
 TPE is equipment left behind for follow-on units to use in an effort to cut down on equipment shipping
costs.


                                                    2
the transferring Army RCs to confirm availability of equipment and negotiates the
transfer. G-8 documents the agreement in a proposal plan. G-8 and Army RCs approve
the proposal plan and forward it to the Office of the Secretary of the Army (OSA) for
review. OSA reviews the proposal plan and verifies that the Army will be able to
maintain sufficient equipment levels to enable all units under its jurisdiction to satisfy
training, operational requirements, and mobilization readiness after the transfer.

OSA forwards the approved proposal plan to the Joint Chiefs of Staff (JCS) for review.
JCS reviews the proposal plan to determine if the equipment transfer will affect DoD’s
ability to complete current and future missions. If the proposal plan negatively affects
DoD’s ability to complete current and future missions, JCS submits an alternative
program and budget proposal to achieve greater conformance with the priorities of the
Combatant Commander. If the proposal plan does not affect DoD’s ability to complete
current and future missions, JCS approves the proposal plan and staffs it to the Office of
the Secretary of Defense (OSD) for review.

Within OSD, ASD (RA), and SECDEF review the proposal plan. ASD (RA), who is
responsible for the overall supervision of RCs matters, reviews the proposal plan to make
sure that Army RCs still have the necessary equipment to complete their dual mission
after the required equipment is transferred. ASD (RA) approves the proposal plan and
forwards it to the SECDEF requesting final approval. The SECDEF approves the
proposal plan, authorizing Army RCs to transfer the requested equipment. Additionally,
the SECDEF’s approval of the proposal plan also signifies approval of the replacement
plan for the transferred equipment. See Appendix B for a diagram of the proposal plan
approval process.

Army Reserve Components Transferred Equipment
Army RCs identified they transferred 290,500 pieces of equipment between 2003 and
September 2011, valued at approximately $7.6 billion.4 In July 2011, G-8 and Army RCs
agreed to review the requirement to replace 85,300 pieces of Army RCs equipment,
valued at approximately $5 billion, transferred to Army AC and mobilizing Army RC
units between 2003 and 2008.5 Since 2008, the SECDEF has approved five proposal
plans that transferred 1,203 pieces of equipment to Army AC and mobilizing Army RC
units, valued at $186.6 million. In addition, Army RCs transferred another
203,997 pieces of equipment, valued at approximately $2.4 billion. Specifically, Army
RCs transferred 203,929 pieces of equipment to other Army RCs for the purpose of
mobilization and 68 pieces of equipment to Army AC. Table 1 (on page 4) illustrates a
summary of Army RCs equipment transfers by type.




4
  Army equipment valuation has been a recurring material weakness for the Army. Army personnel
provided the equipment values contained here and throughout the report. The audit team did not validate
these values.
5
  According to Army G-8, the agreement included Army RCs equipment transfers through July 19, 2008.


                                                    3
                    Table 1. Army RCs Equipment Transfers Type
      Type of Army RCs Equipment           Pieces of           Value
                  Transfer                Army RCs           (millions)
                                          Equipment
  To Army RCs, No Proposal Plan,           203,929            $2,360.0
  Since 2008
  To Army AC, No Proposal Plan,                 68               $39.7
  Since 2008
  To Army AC or Army RCs, With               1,203              $186.6
  Proposal Plan, Since 2008
  To Army AC or Army RCs, With              85,300            $4,969.2
  Proposal Plan, 2003 Through 2008
    Total                                  290,500            $7,555.5

Internal Control Weaknesses With Army Reserve
Components Equipment Transfers
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in the approval and tracking of equipment transferred between Army AC and
Army RCs. Specifically, G-8 and Army RCs inappropriately determined that proposal
plans were not required for equipment transfers within Army RCs for the purpose of
mobilization. Additionally, G-8 did not follow the requirement for a proposal plan and
did not initiate the approval process timely. Furthermore, ASD (RA), G-8, and Army
RCs did not have effective policies and procedures for verifying equipment replacements,
and the Army did not maintain a central repository of Army RCs equipment transfers.
We will provide a copy of the report to the senior official responsible for internal controls
in ASD (RA) and Army.




                                             4
Finding. Transparency and Accountability
Needed for Equipment Transfers
Army officials did not implement accountability procedures to verify the transfer and
replacement of 239,332 pieces of Army RCs equipment, valued at approximately
$5.8 billion. Specifically,

      Army RCs transferred 203,997 pieces of equipment, valued at approximately
       $2.4 billion, to Army AC and other Army RCs without the required SECDEF
       approval.

           o Army RCs transferred 203,929 pieces of equipment, valued at
             approximately $2.4 billion, without a proposal plan because G-8 and
             Army RCs inappropriately determined that proposal plans were not
             required for equipment transfers within Army RCs for the purpose of
             mobilization; and

           o ARNG transferred 68 pieces of equipment, valued at approximately
             $39.7 million, to Army AC without a proposal plan because G-8 did not
             follow the requirement for a proposal plan.

      Army RCs transferred 1,203 pieces of equipment, valued at approximately
       $186.6 million, to Army AC and other Army RCs before obtaining SECDEF
       approval because G-8 did not initiate the approval process timely.

      ASD (RA), G-8, and Army RCs could not accurately account for the replacement
       of 34,132 pieces of Army RCs equipment, valued at approximately $3.2 billion,
       transferred to Army AC and other Army RCs because ASD (RA), G-8, and Army
       RCs informal processes were not effective for verifying equipment replacements.

Additionally, Army could not determine the total amount of Army RCs equipment
transfers for the purpose of mobilization because it did not maintain a central repository
of Army RCs equipment transfers.

As a result, Army RCs have lost transparency of their equipment transfers and may
experience equipment shortages that could hinder their ability to train soldiers and
respond to Federal, State, or local emergencies.

Requirements for Equipment Transfers
DoD Directive 1225.6 establishes requirements for RC equipment levels and
responsibilities for procuring and distributing RC equipment. Specifically, it requires the
RCs of each Military Department be properly equipped to accomplish assigned missions,
including homeland defense. The Directive requires sufficient equipment be available to
support the RCs annual training requirements.



                                             5
The Directive requires that:

                proposals for withdrawals, diversions, or reductions of any equipment
                from the Reserve components, together with a projected equipment
                replacement plan for the removed equipment and supplies, shall be
                submitted for approval after coordination with the Chairman, Joint
                Chiefs of Staff, through ASD (RA), to SECDEF.

The Directive provides an exception to the requirement for equipment withdrawals or
loans that are returned to the RC within 90 days.

Equipment Transfers Made Within Army Reserve
Components Without Proposal Plans
Army officials did not implement accountability procedures to verify the replacement of
Army RCs equipment transferred within Army RCs. Army RCs transferred
203,929 pieces of equipment, valued at approximately $2.4 billion, without a proposal
plan because G-8 and Army RCs inappropriately determined that proposal plans were not
required for equipment transfers made within Army RCs for the purpose of mobilization.
Specifically,

       Army RCs identified equipment requirements and transferred 171,861 pieces of
        equipment without a proposal plan, and
       G-8 recommended the transfer of 32,068 pieces of equipment without a proposal
        plan.

Army Reserve Components Identified Equipment Requirements
Army RCs identified equipment requirements and transferred 171,861 pieces of
equipment within Army RCs, valued at approximately $1.5 billion, without a proposal
plan. Of the 171,861 pieces of equipment, USAR transferred 141,334 pieces of
equipment while ARNG transferred the remaining 30,527 pieces of equipment. For
example, USAR transferred 10 cargo planes, valued at $33.2 million, from the 228th and
52nd Aviation Regiments to the 339th Military Intelligence Company (Aviation Electronic
                                        Warfare) without a proposal plan. Army RCs
   Army RCs identified equipment        stated that equipment transfers occur on a regular
    requirements and transferred        basis to equip Army RCs for upcoming
     171,861 pieces of equipment        deployments. Army RCs use a 5-year process to
     within Army RCs, valued at         schedule deployments and identify equipment
      approximately $1.5 billion,       requirements.6 During the 1st and 2nd year, units are
       without a proposal plan.         equipped and trained with equipment received
                                        through reset. Reset is the refurbishing and
redistribution of equipment brought back from previous deployments. During the 3rd and
4th year, units are trained with the specific equipment that will be used to accomplish its



6
  Army Force Generation Model is the 5-year process used by the Army to schedule deployments and
identify equipment requirements.


                                                  6
                             FOR OFFICIAL USE ONLY

upcoming mission. Army RC units are deployed during the 5th year. Army RCs identify
equipment requirements and transfer equipment during the 5-year process to ready troops
for deployment.

G-8 Recommended Equipment Transfers
G-8 recommended the transfer of 32,068 pieces of equipment within Army RCs, valued
at approximately $877.8 million, without a proposal plan. Of the 32,068 pieces of
equipment, USAR transferred 27,336 pieces of equipment while ARNG transferred the
                                      remaining 4,732 pieces of equipment. According to
       G-8 recommended the            the draft “DoD Directive 1225.6 Request Review
    transfer of 32,068 pieces of      Process,” flowchart and Army officials, the
   equipment within Army RCs,         Combatant Commander and G-3 worked together to
      valued at approximately         identify which units to mobilize, what missions the
     $877.8 million, without a        units would accomplish, and equipment requirements
           proposal plan.             to accomplish the missions. For the 32,068 pieces of
                                      equipment, G-3 submitted a list of the equipment
requirements to G-8. G-8 reviewed the list of equipment requirements and proposed the
best approach to fulfill the equipment requirements to G-3. G-3 provided Army RCs a
fragmentary order directing the equipment transfer when G-3 agreed to fulfill equipment
requirements through TPE or Army RC equipment transfers. Fragmentary orders inform
Army RCs when and where to transfer required equipment. For example, G-8
recommended the transfer of 12 CH-47D helicopters, valued at $60 million. The
helicopters were physically located in Afghanistan, and G-8 recommended that an ARNG
unit leave its helicopters behind for a follow-on ARNG unit. However, G-8 did not
prepare a proposal plan or receive the SECDEF’s approval for the equipment transfers
within Army RCs. As a result, Army RCs may lose accountability of their equipment
levels if they continue to transfer equipment without proposal plans. Additionally, Army
RCs have a diminished ability to respond to State or local emergencies because of a loss
of equipment.

G-8 and Army Reserve Components’ Interpretation
of the Directive
(FOUO) G-8 and Army RCs inappropriately determined that proposal plans were not
required for equipment transferred within Army RCs for the purpose of mobilization.
Although the Directive identifies that any equipment transferred from Army RCs requires
compliance with the Directive, it does not clearly state that equipment transfers within
Army RCs should be included. Army requested a legal review to determine if TPE
transfers required a proposal plan. On December 29, 2009, the Office of the Army Judge
Advocate General concluded that compliance with the Directive is required regardless of
the component that will subsequently receive the equipment. Additionally, the Office of
the Army Judge Advocate General concluded that TPE is not an exception to the
Directive, and all equipment transfers for the purpose of mobilization within Army RCs
should comply with the Directive. We agree with the Office of the Army Judge
Advocate General conclusion that all equipment transfers for the purpose of mobilization
within Army RCs should comply with the Directive. Notwithstanding, G-8 stated that it
did not prepare proposal plans for equipment transfers within Army RCs because the

                             FOR OFFICIAL USE ONLY
                                       7
                              FOR OFFICIAL USE ONLY

(FOUO) equipment did not leave Army RCs possession. Additionally, Army RCs
considered equipment transfers within Army RCs for the purpose of mobilization to be
everyday business transactions that did not require proposal plans. In accordance with
the Directive, G-8 and Army RCs should have prepared proposal plans for the
203,929 pieces of equipment. Accordingly, G-8 should conduct a review with Army RCs
to determine the need to replace the 203,929 pieces of equipment transferred without
proposal plans. For equipment that needs to be replaced, G-8 should prepare a proposal
plan and obtain the SECDEF’s approval for the proposal plan. G-8 and Army RCs
should also prepare proposal plans and obtain the SECDEF’s approval for future
equipment transfers for the purpose of mobilization within Army RCs.

Management Actions to Clarify Equipment Transfers
Made Within Army Reserve Components
As of May 2012, ASD (RA) was creating a new DoD Instruction 1225.06, “Equipping
the Reserve Forces,” (Instruction) to clarify equipment transfers within Army RCs. The
new Instruction will require proposal plans for Military Departments or the Combatant
Commander directed TPE transfers. However, the new ASD (RA) Instruction does not
require proposal plans for all equipment transfers within Army RCs, as required by the
Directive. Rather, the new Instruction requires a 90-Day Equipment Movement Report to
capture equipment transfers within Army RCs for the purpose of mobilization. In
addition, the new Instruction does not require SECDEF-approved proposal plans or a
plan to replace the transferred equipment. If issued as is, Army RCs risk not receiving
replacement equipment, which may impact their ability to perform their missions. The
new Instruction should include requirements established in the Directive before issuance.

The Under Secretary of Defense for Personnel and Readiness issued
DoD Instruction 1225.06 on May 16, 2012. The Acting Principal Deputy, ASD (RA)
stated that the intention of the instruction was to require proposal plans for all equipment
transfers for the purpose of mobilization. However, the new instruction is still unclear
relating to intra-component equipment transfers for the purpose of mobilization.
DoD Instruction 1225.06 should specify that proposal plans are required for
intra-component equipment transfers for the purpose of mobilization.

Army National Guard Equipment Transfers Made to
Army Active Component Without Proposal Plans
Army officials did not implement accountability procedures to verify the replacement of
ARNG equipment transferred to Army AC. ARNG transferred 68 pieces of equipment,
                                      valued at approximately $39.7 million, to Army
    ARNG transferred 68 pieces of
                                      AC without a proposal plan because G-8 did not
         equipment, valued at
                                      follow the requirement for a proposal plan.
    approximately $39.7 million, to
                                      According to the draft “DoD Directive 1225.6
  Army AC without a proposal plan
                                      Request Review Process,” flowchart and Army
    because G-8 did not follow the
                                      officials, G-8 is responsible for proposing how
   requirement for a proposal plan.
                                      Army AC equipment requirements should be
resourced. In some cases, G-8 may determine that the most efficient way to fulfill

                              FOR OFFICIAL USE ONLY
                                        8
Army AC requirements is by transferring equipment directly to Army AC. For example,
G-8 recommended the transfer of 6 OH-58D Kiowa helicopters, valued at approximately
$24.5 million, between a Tennessee ARNG unit and Army AC. However, G-8 did not
prepare a proposal plan for the transferred ARNG equipment.

G-8 stated it transferred equipment without a proposal plan, if the equipment would be
returned within 90 days. However, an ARNG representative stated that the 68 pieces of
ARNG equipment were not returned within 90 days. For example, the Tennessee ARNG
unit provided helicopters to Army AC on May 1, 2010, but Army AC did not return them
to the ARNG unit as of April 2012. The requirement for a proposal plan is a control
mechanism to achieve transparency of Army RCs equipment transfers and replacements.
Therefore, G-8 should not have disregarded the requirement and prepared proposal plans
for the 68 pieces of equipment. G-8 should conduct a review with ARNG to determine
the need to replace the 68 pieces of equipment transferred without proposal plans. For
equipment that needs to be replaced, G-8 should prepare a proposal plan and obtain the
SECDEF’s approval for the proposal plan. G-8 should also prepare proposal plans and
obtain the SECDEF’s approval for future transfers from Army RCs to the Army AC.

Timeliness of Initiation of Proposal Plan
Approval Process
Army officials did not implement accountability procedures to verify the replacement of
Army RCs equipment transferred between the Army AC and other Army RCs. Army
RCs transferred 1,203 pieces of equipment, valued at approximately $186.6 million, to
                                                  Army AC and other Army RCs before
    Army RCs transferred 1,203 pieces of          obtaining SECDEF approval because G-8
      equipment, valued at approximately          did not initiate the approval process in a
    $186.6 million, to Army AC and other          timely manner. Since July 19, 2008, G-8
     Army RCs before obtaining SECDEF             recommended Army RCs transfer
  approval because G-8 did not initiate the 1,203 pieces of equipment in five proposal
     approval process in a timely manner.         plans. G-8 prepared five proposal plans
                                                  that requested the transfer of helicopters;
           7                8
flat racks; ribbon bridges; and equipment in the command, control, communications,
computers, intelligence, surveillance and reconnaissance category. Of the 1,203 pieces of
equipment, USAR transferred 755 pieces of equipment while ARNG transferred the
remaining 448 pieces of equipment. G-8 recommended the equipment transfers before
the SECDEF’s approval. G-8 identified that these equipment transfers were for emerging
requirements. G-8 identified an emerging requirement as any equipment requirement that
is needed within 90 days. However, an Army representative stated G-3 typically
provided sufficient notice for G-8 to fulfill the equipment requirements through approved
proposal plans.


7
  Flat racks are demountable platforms that enable materials and containers to be transported by trucks and
other specialized heavy ground equipment.
8
  Ribbon bridges are floating bridges used by the Army to provide temporary crossing capabilities for
combat vehicles and trucks.


                                                     9
G-8 did not initiate the approval process upon notification of the equipment requirement.
Army representatives stated G-3 typically provided 6 to 9 months of advanced notice to
G-8 for equipment requirements. For example, G-3 notified G-8 in October 2009 of a
requirement for flat racks. G-3 required Army RCs transfer the flat racks by May 2010.
However, G-8 did not initiate the proposal plan for the equipment transfer until
August 2010, almost 3 months after the required date. G-3 provided sufficient notice for
G-8 to fulfill the equipment requirement through approved proposal plans. Although the
SECDEF eventually approved all five proposal plans, the Directive requires prior
approval because obtaining the SECDEF’s approval after-the-fact would create a
temporary loss of equipment visibility.

Management Actions Related to the Initiation of the
Approval Process for Equipment Transfer
Proposal Plans
ASD (RA) and G-8 worked together to establish a formal process initiating the approval
process for equipment transfer proposal plans. The formal process will identify when
G-8 should initiate the proposal plan process. However, ASD (RA) did not finalize or
implement the process. ASD (RA) should finalize and implement formal policies
identifying when the approval process for equipment transfer proposal plans should be
initiated. Furthermore, G-8 should initiate the approval process for equipment transfer
proposal plans in accordance with the new policies established by ASD (RA).

Ineffective Accountability of Army Reserve Components
Replacement Equipment
Army officials did not implement accountability procedures to verify the replacement of
Army RCs equipment transferred between Army AC and Army RCs. ASD (RA), G-8,
and Army RCs could not accurately account for the replacement of 34,132 pieces of
                                           Army RCs equipment, valued at
   ASD (RA), G-8, and Army RCs could approximately $3.2 billion, transferred to
      not accurately account for the       Army AC and other Army RCs because
     replacement of 34,132 pieces of       ASD (RA), G-8, and Army RCs informal
     Army RCs equipment, valued at         processes were not effective for verifying
       approximately $3.2 billion...       equipment replacements. G-8 and Army RCs
                                           agreed to review the requirement to replace
85,300 pieces of equipment that were transferred from Army RCs for mobilization
between 2003 and 2008. G-8 and Army RCs determined that 51,168 pieces of equipment
would not be replaced because they were either repaid with funds that were tracked or the
equipment was obsolete or excess and would not be replaced. G-8 and Army RCs
determined that the remaining 34,132 pieces of equipment required replacement. Of the
34,132 pieces of equipment, USAR transferred 21,293 pieces of equipment while ARNG
transferred the remaining 12,839 pieces of equipment. However, ASD (RA), G-8, and
Army RCs could not identify whether the Army had already replaced the 34,132 pieces
of Army RCs equipment. Table 2 on page 11 depicts a summary of the review of
equipment transferred between 2003 and 2008.



                                           10
          Table 2. Review of Equipment Transferred Between 2003 and 2008
         Determination            Pieces of Army             Value
                                  RCs Equipment            (millions)
  Do Not Replace                      51,168                $1,763.5
  Replace                             34,132                $3,205.8
    Total                             85,300                $4,969.3

ASD (RA), G-8, and Army RCs informal processes were not effective for verifying
equipment replacements. G-8 and Army RCs used electronic spreadsheets that listed
information for each equipment transfer. The spreadsheets included Line Item Number,
equipment description, quantity of the transferred equipment, and the status of the
replacement. However, G-8 and Army RCs did not provide any detail to track the
replacement of transferred equipment in their electronic spreadsheets. Also, Army RCs
were unable to distinguish between equipment received for normal distribution and
equipment received for the completion of a replacement plan.

G-8 also used existing data from multiple systems to track normal distribution and
equipment received for the completion of a replacement plan. According to an Army
representative, USAR and ARNG worked independently and used different systems to
track the replacement of equipment. Specifically, Army systems did not include enough
information to track the replacement of transferred equipment required by the Directive.
Accordingly, ASD (RA), G-8, and Army RCs could not identify whether Army RCs
received replacement equipment. G-8 should take the appropriate action to replace the
34,132 pieces of equipment transferred between 2003 and 2008.

Management Actions Related to the Tracking of Army
Reserve Components Equipment Replacement
ASD (RA) initiated a policy requiring the Secretaries of each Military Department to
submit quarterly closure reports to ASD (RA) indicating when equipment has been
replaced. These reports may strengthen ASD (RA) ability to track equipment
replacements. The policy should improve ASD (RA), G-8, and Army RCs ability to
verify equipment replacements for the 34,132 pieces of equipment transferred between
2003 and 2008 and the 1,203 pieces of transferred equipment on five proposal plans
approved since July 19, 2008. In addition, the policy will improve the ability to verify
equipment replacements for future Army RCs equipment transfers captured on approved
proposal plans. ASD (RA) should finalize and issue formal policies and procedures to
account for equipment replacement provided as a result of approved equipment transfer
proposal plans. Additionally, G-8 and Army RCs need to create implementing guidance
to follow the policies issued by ASD (RA) regarding the accountability of replaced
equipment.




                                           11
Army Needs a Central Repository to Track Army Reserve
Components Equipment Transfers
Army could not determine the total amount of Army RCs equipment transfers for the
purpose of mobilization because it did not maintain a central repository of Army RCs
      Army could not determine the         equipment transfers. In September 2011, the
        total amount of Army RCs           audit team requested the Army provide a
    equipment transfers…because it         universe of Army RCs equipment transfers made
        did not maintain a central         for the purpose of mobilization. Army RCs did
         repository of Army RCs            not know the total number of transfers made for
           equipment transfers.            the purpose of mobilization. In addition, Army
                                           RCs stated that the total number of equipment
transfers was not maintained in a single database. In October 2011, Army RCs provided
numerous spreadsheets that we consolidated to create a single list. The audit team
analyzed the data to determine whether it contained equipment transfers made by both
USAR and ARNG. In February 2012, Army RCs informed the audit team it needed to
reconstruct data related to a section of the list due to a difference in methodology used by
individuals that pulled the data together. Army RCs provided the corrected section of the
list in February 2012. After combining the new section of the list to the sections
previously obtained, Army RCs identified that it transferred 290,500 pieces of equipment,
valued at approximately $7.6 billion. In March 2012, G-8 provided a list of 2,960,745
pieces of Army RCs equipment transferred to ARNG, valued at approximately
$1.3 billion. The G-8 list did not include any transfers of Army RCs equipment made to
USAR. G-8 created the list by pulling information from property transfer records within
the Property Book Unit Supply Expanded and Mobilization and Deployment Information
System. However, the equipment data did not differentiate between equipment transfers
for the purpose of mobilization and equipment transfers for other purposes.

ASD (RA) is responsible for the overall supervision of Army RC matters and must make
certain that Army RCs have the equipment necessary to complete their dual mission. As
discussed, the Directive requires that Army RC equipment transfers for the purpose of
mobilization include replacement plans. If ASD (RA) had full visibility of equipment
transfers for the purpose of mobilization, it could fulfill its oversight responsibilities,
confirming that equipment was replaced and that Army RCs had the equipment necessary
to complete their dual mission. ASD (RA) should develop a central repository to track all
equipment transfers made for the purpose of mobilization to ensure that equipment is
replaced.

Conclusion
Army RCs have lost transparency of their equipment transfers and may experience
equipment shortages that could hinder their ability to train soldiers and respond to
Federal, State, or local emergencies. Army RCs inability to properly respond to
emergencies, such as storms, mudslides, fires, earthquakes, or civil disturbances could
put the safety and well-being of U.S. citizens at risks. Army RCs may have equipment
shortages because G-8 and Army RCs did not prepare proposal plans to replace
203,997 pieces of equipment, valued at approximately $2.4 billion. Army RCs also may


                                            12
have equipment shortages because they transferred 1,203 pieces of equipment, valued at
approximately $186.6 million, without obtaining timely SECDEF approval.
Additionally, ASD (RA), G-8, and Army RCs could not identify whether 34,132 pieces
of equipment, valued at approximately $3.2 billion, was actually replaced, potentially
contributing to equipment shortages.

Recommendations, Management Comments, and
Our Response

Deleted and Renumbered Recommendations
As a result of management comments, we deleted draft Recommendation 1.a and
renumbered Draft Recommendations 1.b, 1.c, 1.d, and 1.e to Recommendations 1.a, 1.b,
1.c, and 1.d, respectively. Recommendation 1.a required ASD (RA) to revise DoD
Directive 1225.6 to clarify that equipment transfers for the purpose of mobilization
within Army RCs require SECDEF approved proposal plans. However, DoD Directive
1225.6 was superseded by the implementation of DoD Instruction 1225.06 on May 16,
2012.

1. We recommend that the Assistant Secretary of Defense for Reserve Affairs:

      a. Update and issue the new DoD Instruction 1225.06, “Equipping the
Reserve Forces,” to include the requirements established in DoD Directive 1225.6,
“Equipping the Reserve Forces,” April 7, 2005.

Assistant Secretary of Defense for Reserve Affairs Comments
The Acting Principal Deputy, ASD (RA), responding on behalf of ASD (RA), agreed and
stated that DoD Instruction 1225.06 covers all transfers of the RCs equipment for the
purpose of mobilization. Specifically, DoD Instruction 1225.06, paragraph 4(e) states
that proposals for withdrawals, reductions, or loans of any equipment from RCs, together
with an equipment replacement plan for the removed equipment and a memorandum of
agreement signed by both the losing and gaining components, shall be forwarded for
SECDEF approval before the transfer of equipment. Corrective action was completed on
May 16, 2012, when the Under Secretary of Defense for Personnel and Readiness issued
DoD Instruction 1225.06.

Our Response
Comments from the Acting Principal Deputy, ASD (RA) were partially responsive. The
Under Secretary of Defense for Personnel and Readiness issued DoD Instruction 1225.06
on May 16, 2012. The new instruction is still unclear relating to intra-component
equipment transfers for the purpose of mobilization. The Acting Principal Deputy, ASD
(RA) stated that the intention of the instruction was to require proposal plans for all
equipment transfers for the purpose of mobilization. However, the Director, ARNG
stated that DoD Instruction 1225.06 does not apply to intra-component equipment
transfers. The Acting Principal Deputy, ASD (RA) should update the
DoD Instruction 1225.06 to specify that proposal plans are required for intra-component


                                          13
equipment transfers for the purpose of mobilization. We request that the Acting Principal
Deputy, ASD (RA), provide comments on the final report.

       b. Finalize and implement formal policies identifying when the approval
process for equipment transfer proposal plans should be initiated.

Assistant Secretary of Defense for Reserve Affairs Comments
The Acting Principal Deputy, ASD (RA), responding on behalf of ASD (RA), agreed and
stated that ASD (RA) is working with the Military Services to develop a process for
initiating and submitting equipment transfers for routine transfers and urgent transfer
requests to meet critical warfighter requirements. He agreed to take corrective action by
September 30, 2012.

Our Response
Comments from the Acting Principal Deputy, ASD (RA) were responsive, and no further
comments are required.

      c. Finalize and issue formal policies and procedures to verify and account for
equipment replacement provided as a result of approved equipment transfer
proposal plans.

Assistant Secretary of Defense for Reserve Affairs Comments
The Acting Principal Deputy, ASD (RA), responding on behalf of ASD (RA), agreed and
stated that DoD Instruction 1225.06, Enclosure 3, paragraph 1(b), requires the Military
Departments submission of a replacement plan and memorandum of agreement to ASD
(RA) to be forwarded to SECDEF for approval. DoD Instruction 1225.06 also requires
the Military Departments to submit closure reports notifying ASD (RA) when equipment
has been replaced. The Acting Principal Deputy, ASD (RA) stated that corrective action
was completed on May 16, 2012, when the Under Secretary of Defense for Personnel and
Readiness, issued DoD Instruction 1225.06.

Our Response
Comments from the Acting Principal Deputy, ASD (RA) were responsive, and no further
comments are required.

      d. Develop a central repository to track all equipment transfers made for the
purpose of mobilization to ensure that equipment is replaced.

Assistant Secretary of Defense for Reserve Affairs Comments
The Acting Principal Deputy, ASD (RA), responding on behalf of ASD (RA), agreed and
stated that ASD (RA) will maintain a central repository to track equipment transfers and
their respective replacement plans. Also, ASD (RA) will hold annual meetings with each
Service to verify that equipment replacements are on track and do not require
modifications. The Acting Principal Deputy, ASD (RA), stated that corrective action was
completed on May 16, 2012.


                                           14
Our Response
Comments from the Acting Principal Deputy, ASD (RA) were responsive, and no further
comments are required.

2. We recommend that the U.S. Army Deputy Chief of Staff, G-8:

       a. Conduct a review with Army Reserve Components to determine the
requirement to replace the 203,929 and 68 pieces of equipment transferred without
proposal plans. For equipment that needs to be replaced, prepare a proposal plan
and obtain the Secretary of Defense’s approval for the proposal plan.

Department of the Army, G-8 Comments
The Assistant Deputy Chief of Staff, G-8, responding on behalf of the U.S. Army Deputy
Chief of Staff, G-8, agreed and stated that the DoD Instruction 1225.06 Integrated
Process Team will work with equipment managers to determine if equipment
replacement is necessary for 68 pieces of equipment. The DoD Instruction 1225.06
Integrated Process Team will forward any resulting replacement plans to ASD (RA) by
September 15, 2012.

Our Response
Comments from the Assistant Deputy Chief of Staff, G-8 were partially responsive. The
Assistant Deputy Chief of Staff, G-8 adequately addressed the review of 68 pieces of
transferred equipment. However, he did not address how it would conduct a review with
Army RCs to determine the requirement to replace, if necessary, the additional 203,929
pieces of equipment transferred without proposal plans. Therefore, we ask the Assistant
Deputy Chief of Staff, G-8 to provide additional comments to the final report.

       b. Adhere to the requirement to prepare proposal plans and obtain the
Secretary of Defense approval for future equipment transfers for the purpose of
mobilization within Army Reserve Components and future transfers from Army
Reserve Components to Army Active Component.

Department of the Army, G-8 Comments
The Assistant Deputy Chief of Staff, G-8, responding on behalf of the U.S. Army Deputy
Chief of Staff, G-8, agreed for post-mobilization equipment transfers, but disagreed for
pre-mobilization equipment transfers. He stated that since the initiation of the report,
DoD Instruction 1225.06 has replaced DoD Directive 1225.6. The Assistant Deputy
Chief of Staff, G-8 agreed to implement the requirements of DoD Instruction 1225.06,
which was published on May 16, 2012. He stated that the new guidance requires a
quarterly report including pre-mobilization transfers submitted by the Service Secretary
to ASD (RA). However, the Assistant Deputy Chief of Staff, G-8 stated that DoD
Instruction 1225.06 does not require a replacement plan or SECDEF approval for these
types of transfers. The Army makes bulk allocation of equipment to the RCs. Pre-
mobilization transfers and reporting under DoD Instruction 1225.06 shall remain the
authority and responsibility of RCs.


                                           15
Our Response
Comments from the Assistant Deputy Chief of Staff, G-8 were partially responsive. The
Assistant Deputy Chief of Staff, G-8 agreed to follow DoD Instruction 1225.06. He did
not agree that pre-mobilization RCs equipment transfers required a replacement plan and
SECDEF approval. However, the Acting Principal Deputy, ASD (RA) stated that DoD
Instruction 1225.06, paragraph 4(e) covers all transfers of RCs equipment. Specifically,
DoD Instruction 1225.06, paragraph 4(e) states that proposals for withdrawals,
reductions, or loans of any equipment from RCs, together with an equipment replacement
plan for the removed equipment and a memorandum of agreement signed by both the
losing and gaining components, shall be forwarded for SECDEF approval before the
transfer of equipment. This includes equipment transfers made within RCs. The Acting
Principal Deputy, ASD (RA) also stated that DoD Instruction 1225.06, Enclosure 3,
paragraph 1(b), requires the Military Departments submission of a replacement plan and
memorandum of agreement to ASD (RA) to be forwarded to SECDEF for approval.
Finally, DoD Instruction 1225.06 requires the Military Departments to submit closure
reports notifying ASD (RA) when equipment has been replaced. Therefore, Army G-8
should adhere to the requirement to prepare proposal plans and obtain SECDEF approval
for pre-mobilization equipment transfers. We request that the Assistant Deputy Chief of
Staff, G-8 reconsider his position on the recommendation and provide comments on the
final report.

      c. Initiate the approval process for equipment transfer proposal plans in
accordance with the new policies established in Recommendation 1.b.

Department of the Army, G-8 Comments
The Assistant Deputy Chief of Staff, G-8, responding on behalf of the U.S. Army Deputy
Chief of Staff, G-8, agreed. He indicated that the Army developed a post-mobilization
equipment transfer process within an All Army Activities message and will provide a
copy of the message to the audit team. The Assistant Deputy Chief of Staff, G-8 stated
that both the Under Secretary of Defense for Personnel and Readiness and ASD (RA)
have approved the process.

Our Response
Comments from the Assistant Deputy Chief of Staff, G-8 were partially responsive. The
equipment transfer process addresses the initiation of a proposal plan for equipment
transferred post-mobilization. However, the Assistant Deputy Chief of Staff, G-8 did not
develop a process for pre-mobilization equipment transfers as required by
DoD Instruction 1225.06. DoD Instruction 1225.06, paragraph 4(e) covers all transfers
of RCs equipment. Therefore, Army G-8 should develop a transfer process for pre-
mobilization equipment transfers as required by DoD Instruction 1225.06. We request
that the Assistant Deputy Chief of Staff, G-8 reconsider his position on the
recommendation and provide additional comments on the final report.




                                           16
       d. Take appropriate action to replace the 34,132 pieces of equipment
transferred between 2003 and 2008.

Department of the Army, G-8 Comments
The Assistant Deputy Chief of Staff, G-8, responding on behalf of the U.S. Army Deputy
Chief of Staff, G-8, agreed and stated that the Army will continue its current effort to
replace equipment transferred between 2003 and 2008, and will complete the action by
September 30, 2015.

Our Response
Comments from the Assistant Deputy Chief of Staff, G-8 were responsive, and no further
comments are required.

       e. Create implementing guidance to follow the policies issued by the
Assistant Secretary of Defense for Reserve Affairs regarding the accountability of
replaced equipment referenced in Recommendation 1.c.

Department of the Army, G-8 Comments
The Assistant Deputy Chief of Staff, G-8, responding on behalf of the U.S. Army Deputy
Chief of Staff, G-8, agreed and stated that the Army will support ASD (RA) policies and
will create implementing guidance upon publication.

Our Response
Comments from the Assistant Deputy Chief of Staff, G-8 were responsive, and no further
comments are required.

3. We recommend that the Chief of Staff, U.S. Army Reserve and the Director,
Army National Guard:

       a. Prepare proposal plans and obtain the Secretary of Defense’s approval for
future equipment transfers made for the purpose of mobilization within Army
Reserve Components.

U.S. Army Reserve Comments
The Chief of Staff, USAR Command, disagreed with the recommendation. The Chief of
Staff, USAR Command, stated that requiring SECDEF approval for routine cross-
leveling of equipment in support of mission requirements would impact the mobilization
of USAR units, impede daily operations, reduce readiness, and degrade the capabilities of
USAR as an operational force. Additionally, the Chief of Staff, U.S. USAR Command,
stated that the transfer of organization and installation property is the responsibility of the
commander and requiring SECDEF approval for pre-mobilization equipment transfers
would strip the commander of this authority.




                                              17
                              FOR OFFICIAL USE ONLY



Our Response
Comments from the Chief of Staff, USAR Command were not responsive. The Chief of
Staff, USAR Command stated that requiring SECDEF approval for routine cross-leveling
of equipment in support of mission requirements would negatively impact the capabilities
of USAR as an operational force. Army RCs use a 5-year process to schedule
deployments and identify equipment requirements. Army RCs identify equipment
requirements and transfer equipment during the 5-year process to ready troops for
deployment. The 5-year process provides sufficient notice to fulfill the equipment
requirement through approved proposal plans. Additionally, as indicated in the finding,
Army RCs were unable to identify equipment transfers made for the purpose of
mobilization. By obtaining approved proposal plans before transferring equipment for
the purpose of mobilization, Army RCs would increase accountability and transparency
of their RC equipment.

Although the transfer of organization and installation property is the responsibility of the
commander, the Under Secretary of Defense for Personnel and Readiness issued
DoD Instruction 1225.06 which requires SECDEF approval of equipment transferred for
the purpose of mobilization. We request that the Chief of Staff, USAR Command
reconsider his position on the recommendation and provide additional comments on the
final report.

Army National Guard Comments
The Director, ARNG disagreed with the recommendation. He stated that neither the old
DoD Directive 1225.6, April 7, 2005, nor the new DoD Instruction 1225.06, May 16,
2012, requires SECDEF approval of equipment transfers made within the same RC prior
to a mobilization, or more broadly, “for the purpose of mobilization.” The Director,
ARNG also stated that unless the equipment is directed to be transferred outside ARNG,
or left behind after a mobilization, it remains under the control of ARNG and, therefore,
does not require replacement plans or special approvals for equipment transfer. He stated
that requiring a Memorandum of Agreement for routine equipment transfers would prove
prohibitive to the equipping and readiness needs of ARNG.

(FOUO) The Director, ARNG stated the 2009 Army Office of the Judge Advocate
General opinion was issued in response to a request for a legal review of the Operation
Enduring Freedom Theatre Provided Equipment Execution Order #058-10 by
Headquarters, Department of Army personnel. He stated the opinion is purposely narrow
in scope and was requested to determine if legal concerns existed within Department of
Army Execution Order #058-10 for Operation Enduring Freedom Equipment guidance.
The Director, ARNG stated the 2009 Army Office of the Judge Advocate General
opinion states intra-component transfers must comply with DoD Directive 1225.6, but
did not necessarily mean SECDEF approval and a Memorandum of Agreement were
required for intra-component transfers made before mobilization.




                              FOR OFFICIAL USE ONLY
                                        18
Our Response
Comments from the Director, ARNG were not responsive. He disagreed that proposal
plans and SECDEF’s approval were required for equipment transfers made for the
purpose of mobilization. Although the Director, ARNG disagreed, the Acting Principal
Deputy, ASD (RA) stated that DoD Instruction 1225.06, paragraph 4(e) covers all
transfers of RCs equipment. Specifically, DoD Instruction 1225.06, paragraph 4(e) states
that proposals for withdrawals, reductions, or loans of any equipment from RCs, together
with an equipment replacement plan for the removed equipment and a memorandum of
agreement signed by both the losing and gaining components, shall be forwarded for
SECDEF approval before the transfer of equipment. Army RCs were unable to identify
equipment transfers made for the purpose of mobilization. The audit identified that Army
RCs transferred 203,997 pieces of equipment for the purpose of mobilization, valued at
approximately $2.4 billion, to Army AC and other Army RCs without the required
SECDEF approval. Army RCs lost transparency of their equipment transfers and may
experience equipment shortages that could hinder their ability to train soldiers and
respond to Federal, State, or local emergencies. We request that the Director, ARNG
reconsider his position on the recommendation and provide additional comments on the
final report.

       b. Create implementing guidance to follow the policies issued by the
Assistant Secretary of Defense for Reserve Affairs regarding the accountability of
replaced equipment referenced in Recommendation 1.c.

U.S. Army Reserve Comments
The Chief of Staff, USAR Command disagreed with the recommendation. He stated that
requiring SECDEF approval for routine cross-leveling of equipment in support of
mission requirements would impact the mobilization of USAR units, impede daily
operations, reduce readiness, and degrade the capabilities of USAR as an operational
force.

Our Response
Comments from the Chief of Staff, USAR Command were not responsive. He stated that
requiring SECDEF approval for routine cross-leveling of equipment in support of
mission requirements would negatively affect the capabilities of USAR as an operational
force. Contrary to the Command’s position, the Army RCs identify equipment
requirements and transfer equipment during the 5-year process to ready troops for
deployment which provides sufficient notice to fulfill the equipment requirements
through approved proposal plans.

Although the Chief of Staff, USAR Command disagreed with the recommendation to
create implementing guidance, Army RCs, without implementing guidance, were unable
to identify equipment requiring replacement. Creating implementing guidance to follow
policies and procedures established within DoD Instruction 1225.06 to verify and account
for equipment replacement would enable the U.S. Army RCs to track all equipment



                                          19
transfers and ensure that equipment is replaced. Therefore, we request the Chief of Staff,
USAR Command reconsider his position on the recommendation and provide additional
comments on the final report.

Army National Guard Comments
The Director, ARNG agreed and stated that once ASD (RA) issues policies the ARNG
will draft correlative implementing guidance.

Our Response
Comments from the Director, ARNG were responsive, and no further comments are
required.




                                            20
Appendix A. Scope and Methodology
We conducted this performance audit from August 2011 through June 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To determine whether Army has transparency and accountability for equipment
transferred between Army AC and Army RCs, we reviewed Army RCs equipment
transfers that occurred from 2003 through September 2011, and determined if they
followed the DoD Directive 1225.6, “Equipping the Reserve Forces,” April 7, 2005. In
October 2011, Army RCs provided a universe of Army RCs equipment transfers made
for the purpose of mobilization. In February 2012, Army RCs informed the audit team
that it needed to reconstruct data related to a section of the audit universe due to a
difference in methodology used by individuals that pulled the data. Army RCs provided
the updated audit universe in February 2012. Army RCs identified that it transferred
290,500 pieces of equipment, valued at approximately $7.6 billion. USAR personnel
provided equipment transfer data from the Force and Asset Search Tool, Reserve End
Item Management System, and Federal Logistics Data on Portable Media. ARNG
personnel provided equipment transfer data that included information from Property
Book Unit Supply Enhanced and Army Readiness Equipment Module. Army and Army
RCs were unable to provide equipment values for 6,576 pieces of equipment. During
March 2012, G-8 identified that the Army RCs transferred 2,960,749 pieces of
equipment, valued at approximately $1.3 billion. However, the data provided by G-8
included equipment transfers other than transfers for the purpose of mobilization and only
included Army RCs equipment transfers to ARNG. Since G-8 provided the universe data
7 months after it was requested and because the G-8 data was not an accurate equipment
universe, the audit team used the data provided by Army RCs.

Army equipment valuation has been a recurring material weakness for the Army. Army
personnel provided the equipment values contained here and throughout the report. The
audit team did not validate these values. As identified, Army RCs transferred the
290,500 pieces of equipment to Army AC and other Army RCs in the following
categories:

       203,997 pieces of equipment, valued at approximately $2.4 billion, without
        proposal plans since 2008;
       1,203 pieces of equipment, valued at approximately $186.6 million, with proposal
        plans since 2008; and
       85,300 pieces of equipment, valued at approximately $5 billion, with proposal
        plans from 2003 through 2008.




                                           21
To accomplish the audit objectives, we:

      contacted personnel from ASD (RA) to identify the DoD Directive 1225.6,
       requirements and Army’s approval process for proposal plans;
      reviewed the DoD Directive 1225.6 to determine the process that must be
       followed when transferring Army RCs equipment for the purpose of mobilization;
      obtained and reviewed documentation explaining Army’s approval process, legal
       interpretations from the Office of the Army Judge Advocate General, the new
       DoD Instruction 1225.06, “Equipping the Reserve Forces,” and notifications
       indicating that Army had advance knowledge of future equipment requirements;
      obtained lists provided by ASD (RA) of Army RCs equipment transfers from
       2003 through 2008, approved Army RCs proposal plans, and reports on
       withdrawal or diversion of equipment from Reserve units. The quarterly reports
       contained lists of equipment transferred from Army RC units during the previous
       90-day period;
      contacted the Department of the Army personnel from G-3, G-8, USAR, and
       ARNG to determine their roles and responsibilities and Army’s approval process
       for proposal plans;
      obtained and reviewed a draft “DoD Directive 1225.6 Request Review Process,”
       flowchart of the approval process and held meetings with Army personnel to gain
       an understanding of their roles in the approval process;
      obtained lists provided by Army Components of equipment transfers from 2003
       through September 2011, reports on withdrawal or diversion of equipment from
       Reserve units, and equipment transfer documentation to include shipping
       documents, bills of lading, and the Department of the Army Form 3161, “Request
       for Issue or Turn-In;”
      compared the ASD (RA) and Army Component lists to identify a listing of Army
       RCs equipment transfers; and
      verified that proposal plans included replacement plans and that the SECDEF’s
       approval was obtained before equipment transfer.

Use of Computer-Processed Data
Army RCs provided numerous spreadsheets that required consolidation to create a list of
290,500 pieces of Army RC equipment, valued at $7.6 billion. USAR provided
equipment transfer data that included information from Force and Asset Search Tool,
Reserve End Item Management System, and Federal Logistics Data on Portable Media.
ARNG provided equipment transfer data that included information from Property Book
Unit Supply Enhanced and Army Readiness Equipment Module. We compared the
created list to an ASD (RA) list of equipment transfers to determine accuracy and
completeness. Additionally, we obtained supporting documentation for some equipment
transfers to include proposal plans, shipping documents, and property transfer forms, and
concluded that the data was sufficiently reliable to accomplish our audit objective.




                                           22
G-8 also provided equipment transfer data that included information from Property Book
Unit Supply Enhanced and Mobilization and Deployment Information System. However,
G-8 provided the data 7 months after it was requested and the data did not differentiate
between equipment transfers for the purpose of mobilization and equipment transfers for
other purposes. As a result, we did not use the data during our review.

Prior Coverage
During the last 6 years, the Government Accountability Office (GAO) issued one report
discussing the equipment readiness of the Reserve Forces. Unrestricted GAO reports can
be accessed over the Internet at http://www.gao.gov.

GAO Report No. GAO-07-60, “Reserve Forces: Actions Needed to Identify National
Guard Domestic Equipment Requirements and Readiness,” January 26, 2007




                                          23
Appendix B. Diagram of Proposal Plan
Approval Process




Source: ASD (RA).



                    24
  Final Report
   Reference




Deleted




Renumbered as
Recommendation 1.a




Renumbered as
Recommendation 1.b




Renumbered as
Recommendation 1.c
  Final Report
   Reference




Renumbered as
Recommendation 1.d
Department of Army, G-8 Comments




                               28
